                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Needs to Improve
                     Management of the
                     Cross-Media Electronic
                     Reporting Regulation Program
                     in Order to Strengthen
                     Protection of Human Health
                     and the Environment
                     Report No. 14-P-0143                    March 21, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                                Rudolph M. Brevard
                                                     Warren Brooks
                                                     Christina Nelson
                                                     Jeremy Sigel




Abbreviations

AG              Attorney General
CFR             Code of Federal Regulations
CROMERR         Cross-Media Electronic Reporting Regulation
EPA             U.S. Environmental Protection Agency
FY              Fiscal Year
IT              Information Technology
OEI             Office of Environmental Information
OGC             Office of General Counsel
OIC             Office of Information Collection
OIG             Office of Inspector General
OMB             Office of Management and Budget
PSM             Program and Stakeholder Management
TRC             Technical Review Committee



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                            14-P-0143
                                                                                                      March 21, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Needs to Improve Management of the Cross-Media
                                    Electronic Reporting Regulation Program in Order to
The U.S. Environmental
Protection Agency (EPA)             Strengthen Protection of Human Health and the Environment
Cross-Media Electronic
                                     What We Found
Reporting Regulation
(CROMERR) specifies the
                                    The EPA lacks documented procedures that             An absence in
requirements for states, tribes
                                    reflect current operations of the CROMERR            management controls
and local governments that
                                    program. Such procedures are an integral             could lead the EPA to
operate delegated programs to
                                    component of an effective management control         receive electronic
accept electronic reporting,                                                             documents that are
                                    program as outlined in Office of Management and
including electronic signatures,                                                         unacceptable in
                                    Budget Circular A-123. While CROMERR
from regulated facilities under                                                          administrative or judicial
                                    applications require State Attorney General (or the
most environmental                                                                       enforcement proceedings.
                                    chief administrative official in the case of tribes
regulations. Once a system is
                                    and local governments) approval, the EPA lacks
put in place that satisfies the
                                    processes to ensure approvals from designated officials. The EPA has neither
requirements of CROMERR,
                                    implemented monitoring activities to verify a CROMERR system’s functionality
regulated facilities can file
                                    before and after approval nor implemented processes to ensure CROMERR
electronic reports instead of
                                    applications are completed, reviewed and approved within required time frames.
paper reports. This will reduce
the amount of paper created
                                    The EPA had not made it a priority to keep procedures current for implementing
and transferred and, thus,
                                    CROMERR business practices. Many of the noted deficiencies could have been
reduce the cost of reporting
                                    averted with management emphasis. We noted that 20 percent of the reviewed
and compliance monitoring.
                                    CROMERR applications lacked support for State Attorney General
This initiative ultimately helps
                                    determinations. We noted that one state changed its CROMERR process without
the EPA strengthen its
                                    notifying the EPA and another implemented its CROMERR application differently
enforcement of regulations to
                                    than what the EPA approved. Without current documented business practices,
protect human health and the
                                    the EPA increases its risks that CROMERR applications may not be processed
environment.
                                    according to prescribed requirements and meet the high level of integrity needed
                                    for enforcement activities.
This report addresses the
following EPA themes:
                                     Recommendations and Planned Agency Corrective Actions
 Embracing EPA as a high
                                    In addition to updating its current procedures, we recommend that the EPA:
  performing organization.
 Working toward a                      Create a process to verify a state’s compliance with CROMERR and
  sustainable future.                    implement a completeness review process consistent with CROMERR.
                                        Develop internal guidance for staff to use in determining acceptable
                                         evidence for designation from the State Attorney General (or the chief
                                         administrative official).

                                    The agency concurred with our recommendations and provided a complete
For further information,
contact our public affairs office
                                    corrective action plan. We consider these recommendations resolved.
at (202) 566-2391.
                                     Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2014/       The EPA is developing a new management system which will allow CROMERR
20140321-14-P-0143.pdf              stakeholders to monitor their CROMERR applications through the agency review
                                    process.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                      THE INSPECTOR GENERAL




                                            March 21, 2014

MEMORANDUM

SUBJECT:	 EPA Needs to Improve Management of the Cross-Media Electronic Reporting Regulation
          Program in Order to Strengthen Protection of Human Health and the Environment
          Report No. 14-P-0143

FROM:	         Arthur A. Elkins Jr.

TO:	           Renee P. Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

               Avi Garbow, General Counsel 

               Office of General Counsel 


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. The Office of Information
Collection within the Office of Environmental Information is the primary office responsible for the
agency program that we reviewed. The Office of General Counsel is responsible for reviewing Attorney
General certifications for the agency program reviewed.

This report represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

The agency concurred with all seven recommendations. We accept the EPA’s response and planned
corrective actions and no further response is needed. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Rudolph M. Brevard, Director, Information Resources Management Audits, at (202) 566-0893
or brevard.rudy@epa.gov.
EPA Needs to Improve Management of the Cross-Media                                                                            14-P-0143
Electronic Reporting Regulation Program in Order to
Strengthen Protection of Human Health and the Environment



                                    Table of Contents 

Chapters
   1      Introduction ........................................................................................................      1


                  Purpose .......................................................................................................    1     

                  Background .................................................................................................       1     

                  Responsible Offices ....................................................................................           2     

                  Noteworthy Achievements ...........................................................................                3     

                  Scope and Methodology..............................................................................                3


   2 	 Updated Procedures Needed to Aid in Consistent Review of 

       CROMERR Applications .......................................................................................                  5


                  Outdated Documented CROMERR Business Practices .............................                                       5

                  Inconsistent Standards for Determining AG Designee ................................                                6

                  Recommendations ......................................................................................             7     

                  Agency Response and OIG Evaluation .......................................................                         7


   3 	 Improvements Needed in the Monitoring and Reviewing of 

       CROMERR Applications .......................................................................................                  9


                  EPA Lacks Internal Controls to Monitor Systems With 

                     CROMERR Applications ........................................................................                   9

                  EPA Does Not Adhere to Required Completeness Review 

                     Time Frames for CROMERR Applications ............................................                              10 

                  Recommendations ......................................................................................            11     

                  Agency Response and OIG Evaluation .......................................................                        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                          13 




Appendices
   A      CROMERR System Checklist ………………………………………………………                                                                            14


   B      Summary of States’ Input on CROMERR Implementation .............................                                          25 


   C      Agency Response to Draft Report....................................................................                       26 


   D      Subsequent Agency Response to Draft Report (OEI).....................................                                     31 


   E      Distribution .........................................................................................................    34 

                                  Chapter 1

                                   Introduction
Purpose
            We sought to determine to what extent the U.S. Environmental Protection Agency
            (EPA) has implemented a management control structure for the Cross-Media
            Electronic Reporting Regulation (CROMERR).

Background
            On October 13, 2005, the EPA established a framework for acceptance of
            electronic reports from regulated entities. Information systems receiving
            electronic reports for programs that states, tribes or local governments are
            authorized to manage must meet CROMERR standards in accordance with
            Code of Federal Regulations (CFR) Title 40 Part 3. CROMERR is intended to
            reduce the cost and burden of electronic reporting while maintaining the level of
            corporate and individual responsibility and accountability that exists in the paper
            environment. CROMERR requires an electronic report from facilities that are
            regulated under EPA-authorized programs to make the signatory responsible to
            the same extent as the signatory’s handwritten signature would on a paper
            document. Such electronic reports must be sufficient for admission as evidence.

            CROMERR supports many of the benefits of electronic reporting, including:

                  Allowing government agencies and regulated entities to interact
                   electronically.
                  Fostering more rapid and accurate environmental reporting and posting of
                   compliance information.
                  Making data more readily available.
                  Maintaining consistency with emerging industry practices.

            States, tribes and local governments must submit a CROMERR application to
            receive the EPA’s approval prior to receiving electronic reports. The certification
            for a CROMERR application from the State Attorney General (AG)—or the chief
            administrative official in the case of tribes and local governments—documents
            that the states, tribes and local governments have legal authority to receive
            electronic reports. The EPA’s Office of General Counsel (OGC) is responsible for
            reviewing the certifications. After receiving an application, the Technical Review
            Committee (TRC), consisting of representatives from each of the EPA’s program
            and regional offices, has 75 days to review the application for completeness.




14-P-0143                                                                                         1
                 Once an application is determined to be complete, the EPA has 180 days to approve
                 or deny the application via the TRC.1 According to EPA Delegation 1-120, the
                 OGC and the Office of Enforcement and Compliance Assurance must concur or
                 non-concur on actions to be taken on applications prior to the Office of
                 Environmental Information (OEI) publishing the approval notice in the Federal
                 Register. As of January 29, 2013, the EPA has approved 35 of the 81 CROMERR
                 applications received from various states.

              Graph 1: Status of CROMERR Applications Submitted to the EPA




                                   Approved, 35
                                                              Not Yet
                                                            Approved, 46




         Source: OIG Analysis


Responsible Offices

                 The Office of Information Collection (OIC) within OEI is the focal point for
                 information collection and the development and implementation of innovative
                 collection policies and approaches for the agency. OIC is responsible for oversight
                 of the CROMERR program. OIC enables the agency to protect human health and
                 the environment through informed decisions and actions.

                 The General Law Office within the OGC provides legal advice to the agency.
                 OGC is the chief legal adviser to the EPA, providing support for agency rules and
                 policies, and is responsible for reviewing CROMERR applications and verifying
                 the AG’s certification as well as identifying any legal issues with the application.




1
  The EPA can extend the approval review time frame to 360 calendar days for applications that are submitted late in
the deadline period. The CROMERR deadline period was extended to January 13, 2010, to assist state, tribes and
local governments in complying with CROMERR.

14-P-0143                                                                                                         2
Noteworthy Achievements
            OEI is developing the Program and Stakeholder Management (PSM) system, a
            tailored vendor product, which allows CROMERR stakeholders (members from
            OEI, OGC, and the Office of Enforcement and Compliance Assurance, as well as
            regional and state personnel) to monitor CROMERR applications through the
            application review process. The system is a relational database housed in a cloud
            environment that uses CROMERR application data to create reports. By using the
            PSM’s calendar, dashboard and email functions, representatives from OIC stated
            they will send email reminders to stakeholders based on the review and approval
            of CROMERR deadlines. They also plan to use PSM to retain program
            knowledge not readily available in CROMERR guidance through linkage to
            common issues and lessons learned.

Scope and Methodology
            We conducted our audit from February 2012 to August 2013 in accordance with
            generally accepted government auditing standards. These standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our conclusions based on our audit objectives.

            We assessed the EPA’s documented CROMERR processes, procedures and
            business practices against the Office of Management and Budget (OMB)
            Circular A-123, Management’s Responsibility for Internal Control in Federal
            Agencies. We compared the CROMERR program procedures and standards to
            OMB Circular A-123 to determine whether management defined internal control
            requirements for control environment, risk assessment, control activities,
            information and communication, and monitoring activities. We identified internal
            controls used to manage the CROMERR program by interviewing agency
            personnel responsible for implementing the program. The EPA provided the
            Office of Inspector General (OIG) with a demonstration of the information system
            that the EPA is developing to track CROMERR applications submitted for
            approval to obtain an understanding of the system’s features and functions.

            OIC provided the OIG with a list of all CROMERR applications. The OIG
            selected a judgmental sample of 10 approved CROMERR applications and used
            the CROMERR system checklist, the template for documenting system
            conformance with CROMERR standards, to determine whether the sample
            CROMERR applications met the requirements. The checklist is divided into five
            categories that match with the five phases of the e-reporting process (Registration,
            Signature Process, Submission Process, Signature Validation, and Creation of the
            Copy Record). Appendix A contains the CROMERR checklist.

            We also selected a judgmental sample of five reviewed CROMERR applications
            to test the timeliness of the review process. We reviewed the hard copy date

14-P-0143                                                                                       3
            stamps or electronic documentation for these applications to determine the
            submission date. We were able to determine the date the applicant received the
            completeness review and, if applicable, the date the EPA approved the
            application. We compared these dates with the required CFR time frames for the
            completeness and approval reviews.

            From our analysis of all CROMERR applications, we selected the following state
            locations with applications in various stages (submitted, completed and approved)
            of the CROMERR review process:

                  Delaware Department of Natural Resources and Environmental Control.
                  Iowa Department of Natural Resources.
                  New Mexico Environment Department.
                  North Carolina Department of Environment and Natural Resources.

            During the site visits, we interviewed employees involved in creating the
            CROMERR application, developing and managing the system(s) for the
            application, and administrative users of the system(s). If the CROMERR
            application was operational or in development, we were given a demonstration of
            how others use the system.

            From the telephone interviews and state visits, we received input from state
            personnel regarding how to improve the CROMERR program. Appendix B
            contains a list of the states’ suggestions.

            We did not follow up on prior recommendations since there were no prior audits
            conducted on the EPA’s CROMERR program.




14-P-0143                                                                                    4
                                  Chapter 2

    Updated Procedures Needed to Aid in Consistent 

          Review of CROMERR Applications 

            The EPA lacks current policies and procedures to reflect the control activities for
            the CROMERR processes. In particular, the EPA had not updated several key
            CROMERR business processes since implementing the program. The EPA also
            lacked formal written processes to ensure consistency in making AG
            determinations for submitted applications. Federal guidance requires the EPA to
            maintain policies and procedures to reflect the current control activities for all of
            their programs, which includes CROMERR processes. EPA management had not
            made it a priority to keep CROMERR business processes up to date. Without
            current documented business practices, the EPA faces the possibility that
            CROMERR applications may not be processed according to prescribed
            requirements or with the benefit of personnel with expertise on how the
            CROMERR process operates. Furthermore, management had not developed
            internal guidance for staff to use for making AG determinations. We found that 20
            percent of reviewed applications lacked explicit support for AG determinations,
            which could have been prevented with more management oversight and internal
            guidance.

Outdated Documented CROMERR Business Practices
            The documented business practices do not reflect the current implementation of
            the CROMERR program. These documented business practices include:

               	 EPA Procedure for Approval of State, Tribal, or Local Government
                  Authorized or Delegated Program Applications for Implementing
                  CROMERR.
                EPA Procedure for Implementation of CROMERR for EPA Systems.

                Technical Review Committee Charter.

                CROMERR authorized program review for approval flowchart. 


            In particular, the Exchange Network Policy and Planning Workgroup and Quality
            Information Counsel-Exchange Network Subcommittee no longer participate in
            the CROMERR program. However, the workgroup and subcommittee are
            included in the written CROMERR business practices. Also, the EPA has not
            updated CROMERR procedures and other business practice documentation (such
            as flowcharts). Additionally, the TRC documentation does not reflect the current
            process or participants. We also found that the EPA provides inconsistent
            information about where states should submit their CROMERR applications.

            OMB Circular A-123 provides guidance to agency management to assess and
            monitor internal controls for agency programs. Specifically, control activities include
            “policies, procedures and mechanisms in place to help ensure the agency objectives


14-P-0143                                                                                      5
            are met.” The objective of these internal controls is to ensure the effectiveness and
            efficiency of operations and compliance with laws and regulations.

            While the EPA has written policies and procedures detailing internal controls
            around the CROMERR process, the EPA had not placed priority on keeping
            business processes up-to-date. This includes notification to regions and program
            offices about open alternate TRC representative slots, which would affect the
            review of CROMERR applications in the event the primary representative is
            unable to participate. This lack of a notification process has led to seven regions
            with no alternate TRC representatives assigned. Outdated documentation stating
            differing locations of where to send CROMERR applications can lead to the
            applicant sending applications to a program or regional official instead of the
            OIC, affecting the response time of the EPA’s application completeness review.
            Furthermore, there are a limited number of personnel directly involved in the
            review and approval process for applications. If these employees were to leave the
            EPA for an extended period, personnel assigned to implement the CROMERR
            program will not have reliable documentation to perform the application
            completeness review.

Inconsistent Standards for Determining AG Designee
            The EPA lacks consistency in determining the sufficiency of evidence needed to
            support signing the State AG or equivalent certification for a CROMERR
            application. Based on our analysis of 10 approved CROMERR applications, 20
            percent of the State AG or equivalent certification letters lacked explicit
            supporting documentation to show a designation from the State AG or equivalent
            to the designee who signed the certification.

            Title 40 CFR Part 3 Subpart D §3.1000(b)(1)(i) requires CROMERR applicants to
            submit a certification that they have sufficient legal authority to implement
            electronic reporting. The signature of the State AG (or chief administrative
            official in cases of a tribe or local government) covers this component of the
            authorized programs’ CROMERR applications.

            These inconsistencies exist because there are no documented policies or standards
            that outline what constitutes sufficient evidence for AG certifications signed by a
            designee. OGC lawyers review AG certifications on a case-by-case basis using
            their experience and legal interpretation. Without a valid AG certification, a key
            evidentiary piece of the EPA’s case against fraudulent electronic reporting may be
            lost. This potentially weakens cases brought against significant violators with
            fraudulent reports.

            Subsequent to issuing our findings, the EPA provided written comments to the
            OIG. The agency stated it had updated documented CROMERR business
            practices. However, the agency had not provided the OIG with the documentation.
            Also, while AG certifications appear valid based on the totality of the documents


14-P-0143                                                                                      6
            and authority conveyed by the designees, the lack of documented standards for
            OGC review remains an issue.

Recommendations
            We recommend that the Director, Office of Information Collection, within the
            Office of Environmental Information:

               1.	 Update written CROMERR business practices and remove references to
                   the Exchange Network Policy and Planning Workgroup and Quality
                   Information Counsel-Exchange Network Subcommittee since they no
                   longer participate in the CROMERR program. Those written practices
                   should include:

                       a) EPA Procedure for Approval of State, Tribal, or Local
                           Government Authorized or Delegated Program Applications for
                           Implementing CROMERR;
                       b)	 EPA Procedure for Implementation of CROMERR for EPA
                           Systems;
                       c)	 Technical Review Committee Charter; and
                       d) CROMERR authorized program review for approval flowchart.

               2.	 Update CROMERR procedures to state where CROMERR applications
                   and modifications to applications are sent.

               3.	 Develop and implement an oversight process to regularly notify regions
                   and program offices when TRC representative roles need to be filled.

            We recommend that the Associate General Counsel of the General Law Office
            within the Office of General Counsel:

               4.	 Create and implement an internal guidance the staff will use to determine
                   acceptable support for a designation from the State AG (or chief
                   administrative official) to the designee who signs the AG certification.

Agency Response and OIG Evaluation
            OEI and OGC provided a joint response to the draft report (appendix C), which
            was signed by the acting Assistant Administrator for OEI. OEI concurred with
            recommendations 1, 2 and 3, and provided a corrective action plan. We consider
            these recommendations resolved with corrective actions pending.

            OGC did not agree with recommendation 4 to document how attorneys verify the
            validity of AG certifications. The agency states that 40 CFR Part 3 Subpart D
            §3.1000(b)(1)(i) clearly articulates the standards for AG certification. However,
            we found this section of the CFR to be vague regarding what constitutes a valid
            State AG designee. Our audit showed that there is no consistency in the

14-P-0143                                                                                      7
            documentation the EPA received for AG designees. As such, this contributed to
            the discrepancies noted in this audit.

            Subsequent to the issuance of our draft report, we met with representatives from
            both OEI and OGC. Upon discussions with OGC, we reworded the
            recommendation to more clearly describe the corrective action needed. In an
            electronic email response from OGC, its management concurred with the
            reworded recommendation and provided a corrective action plan. We consider
            this recommendation resolved with corrective action pending.




14-P-0143                                                                                      8
                                  Chapter 3

        Improvements Needed in the Monitoring and 

           Reviewing of CROMERR Applications 

            The EPA lacks monitoring activities to verify CROMERR systems’ functionality
            prior to approval or follow-up with states to ensure that the systems continue to
            meet CROMERR requirements. Furthermore, the EPA lacks processes monitoring
            internal controls to ensure that completeness reviews are completed within
            required time frames. Federal guidance requires management to have internal
            controls related to monitoring activities. The EPA neither implemented processes
            to enforce CROMERR system compliance nor created a formal documented
            completeness review process for reviewing CROMERR applications. This audit
            disclosed that one state changed its CROMERR process without notifying the
            EPA. Another state implemented its CROMERR application differently than the
            EPA approved. Additionally, the agency did not review all CROMERR
            applications in a timely manner. As a result of not having these key processes in
            place, the EPA could be receiving electronic documents which are not enforceable
            in court.

EPA Lacks Internal Controls to Monitor Systems With
CROMERR Applications
            The EPA had not implemented internal controls related to continuous monitoring
            to verify that the applicants’ electronic reporting systems comply with
            CROMERR requirements.

            During state site visits, we found the following:

               	 A system with an approved CROMERR application that did not notify the
                  EPA of a change in their process as required by 40 CFR Part 3 Subpart D
                  §3.1000(a)(4).
               	 A system with an approved CROMERR application that had one out of the
                  20 application checklist items not functioning as stated. While the state
                  had other controls in place for the checklist item, the state did not notify
                  the EPA of the change as required by 40 CFR Part 3.

            OMB A-123 requires management to develop and maintain internal control
            activities, including monitoring.

            The EPA lacks a process to enforce CROMERR compliance or to conduct
            monitoring activities, prior to or after approving CROMERR applications, to
            ensure that the system and business practices are CROMERR compliant. The
            agency trusts the information on the CROMERR application to be accurate and
            requires applicants to notify the EPA of any modifications.




14-P-0143                                                                                    9
            OIC is responsible for implementing the CROMERR program but lacks the
            required internal controls. These internal controls would determine that the
            CROMERR applications submitted include accurate information and monitor
            CROMERR-compliant systems. While OIC delegates management responsibility
            to regional and program personnel, OIC still needs processes in place to review
            the regional and program monitoring activities for sufficiency. According to the
            EPA representatives, the CROMERR program would benefit from a policy in
            place requiring a review of the information in the CROMERR application from
            states, tribes and local governments prior to approval. However, the EPA has not
            taken steps to develop such policy.

            By not having internal controls for monitoring application information, the EPA
            may be approving CROMERR applications for systems that do not function as
            stated in their application. It is important for applicants to receive electronic
            reports that are CROMERR compliant to ensure that the EPA and its authorized
            programs have documentary evidence for court cases. If approved systems are not
            CROMERR compliant, then the electronic reports from these systems may not be
            legally dependable and enforceable in court.

EPA Does Not Adhere to Required Completeness Review
Time Frames for CROMERR Applications
            The EPA does not review CROMERR applications for completeness in a timely
            manner. The EPA did not send written completeness reviews to two out of the
            five states we reviewed. The EPA also did not finish the completeness reviews of
            CROMERR applications within required time frames for three of the five states
            tested.

            Table 1: Summary of results of completeness review testing
                                                                      Days that the
                                    Completeness     Completeness    EPA missed the
                                    notice written   review timely      deadline
             Massachusetts               NO              YES               0
             West Virginia               NO               NO              175
             Florida                    YES               NO              389
             Delaware                   YES               NO              280
             Oklahoma                   YES              YES               0
            Source: OIG analysis.

            Title 40 CFR Part 3 Subpart D §3.1000(b)(3)(i), requires the EPA to respond in
            writing to applicants notifying them that their application is complete or
            incomplete. This written response should occur within 75 calendar days for
            original application submissions and 30 calendar days for amendments to existing
            applications. If the application is incomplete, the EPA should identify deficiencies
            in the application that renders it incomplete and inform the applicant in writing of
            the deficiencies.

14-P-0143                                                                                    10
            The EPA does have a formal documented completeness review process for
            reviewing CROMERR applications. However, according to OIC personnel, the
            EPA sometimes uses an informal process for reviewing CROMERR applications
            for completeness. Based on OIG interviews, the undocumented informal
            completeness review process includes the EPA and the applicant discussing the
            CROMERR application via telephone and email. According to OIC personnel and
            employees from the states that we visited, the informal completeness review
            process does not include written incompleteness notices or timeframes for the
            EPA to share the results with CROMERR applicants.

            Without a response from the EPA about the status of their CROMERR
            application, applicants with operational systems may violate the CROMERR
            requirements by moving forward in receiving electronic reports without an
            approval. Delay in the EPA completeness review for applicants, may cause delays
            in the development of the system(s) and additional costs. Additionally, since the
            EPA’s approval process begins once a CROMERR application is complete, the
            use of an informal review without deadlines can delay the EPA’s approval of
            CROMERR applications.

            Subsequent to issuing our findings, the agency stated it updated its documented
            CROMERR business practices to incorporate the informal review process.
            However, the agency had not provided the OIG with information for review.

Recommendations
            We recommend that the Director, Office of Information Collection, within the
            Office of Environmental Information:

               5.	 Create a process to determine if the information included in the
                   CROMERR application is reliable and accurate prior to the CROMERR
                   application being approved.

               6.	 Create a process to regularly follow up with applicants with approved
                   CROMERR applications in order to confirm that no changes were made to
                   the approved CROMERR application.

               7.	 Develop and implement a completeness review process with states, tribes
                   and local governments that is consistent with the CROMERR program.

Agency Response and OIG Evaluation
            In its response to our draft report, the agency agreed with our recommendations
            and provided a corrective action plan for two of the three recommendations.
            Management did not agree with a portion of our recommendation to create
            enforcement policy and procedures that include implementing a process for
            verifying system functionality prior to the approval of the CROMERR
            application. OEI stated that the CROMERR program does not authorize the EPA

14-P-0143                                                                                     11
            to verify system functionality prior to application approval. During our audit, we
            noted that the EPA relies on the information the applicant provides to be accurate.
            As such, prior to approving applications, the EPA should determine which
            attributes in the CROMERR application are implemented and which attributes are
            not yet implemented.

            Subsequent to the issuance of our draft report, we met with agency officials to
            discuss their concerns with the draft report recommendations. While management
            did not concur that the agency needed an enforcement policy, management
            subsequently agreed that the responsible office should have documented policies
            and procedures for conducting this activity. Where appropriate, we modified the
            report recommendations to address management concerns. Appendix C provides
            the agency’s original response to the draft report. Appendix D contains the
            agency’s subsequent response to the recommendations.




14-P-0143                                                                                    12
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                                   POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion     Claimed    Agreed-To
    No.      No.                          Subject                          Status1          Action Official            Date        Amount      Amount

     1        7     Update written CROMERR business practices and            O       Director, Office of Information 4th Quarter
                    remove references to the Exchange Network Policy                      Collection, Office of       FY 2014
                    and Planning Workgroup and Quality Information                    Environmental Information
                    Counsel-Exchange Network Subcommittee since
                    they no longer participate in the CROMERR
                    program. Those written practices should include:
                      a) EPA Procedure for Approval of State, Tribal,
                         or Local Government Authorized or
                         Delegated Program Applications for
                         Implementing CROMERR;
                      b) EPA Procedure for Implementation of
                         CROMERR for EPA Systems;
                      c) Technical Review Committee Charter; and
                      d) CROMERR authorized program review for
                         approval flowchart.

     2        7     Update CROMERR procedures to state where                 O       Director, Office of Information 2nd Quarter
                    CROMERR applications and modifications to                             Collection, Office of       FY 2014
                    applications are sent.                                            Environmental Information

     3        7     Develop and implement an oversight process to            O       Director, Office of Information 2nd Quarter
                    regularly notify regions and program offices when                     Collection, Office of       FY 2014
                    TRC representative roles need to be filled.                       Environmental Information

     4        7     Create and implement an internal guidance the            O        Associate General Counsel      2nd Quarter
                    staff will use to determine acceptable support for a              of the General Law Office,      FY 2014
                    designation from the State AG (or chief                           Office of General Counsel
                    administrative official) to the designee who signs
                    the AG certification.

     5       11     Create a process to determine if the information         O       Director, Office of Information 3rd Quarter
                    included in the CROMERR application is reliable                       Collection, Office of       FY 2014
                    and accurate prior to the CROMERR application                     Environmental Information
                    being approved.

     6       11     Create a process to regularly follow up with             O       Director, Office of Information 1st Quarter
                    applicants with approved CROMERR applications                         Collection, Office of       FY 2015
                    in order to confirm that no changes were made to                  Environmental Information
                    the approved CROMERR application.

     7       11     Develop and implement a completeness review              O       Director, Office of Information 3rd Quarter
                    process with states, tribes and local governments                     Collection, Office of       FY 2014
                    that is consistent with CROMERR.                                  Environmental Information




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




14-P-0143                                                                                                                                            13
                                                                                        Appendix A

                        CROMERR System Checklist
                                  CROMERR System Checklist
Item

                                Registration (e-signature cases only)

1. Identity-proofing of registrant
       Business Practices:



       System Functions:



       Supporting Documentation (list attachments):




1a. (priority reports only) Identity-proofing before accepting e-signatures
       Business Practices:



       System Functions:



       Supporting Documentation (list attachments):




1b. (priority reports only) Identity-proofing method (See 1bi, 1bii, and 1b-alt)

1bi. (priority reports only) Verification by attestation of disinterested individuals
       Business Practices:



       System Functions:



       Supporting Documentation (list attachments):




14-P-0143                                                                                       14
1bii. (priority reports only) Information or objects of independent origin
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




1b-alt. (priority reports only) Subscriber agreement alternative
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




2. Determination of registrant's signing authority
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                                    15
3. Issuance (or registration) of a signing credential in a way that protects it from compromise
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




4. Electronic signature agreement
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




                            Signature Process (e-signature cases only)

5. Binding of signatures to document content
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                                                         16
6. Opportunity to review document content
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




7. Opportunity to review certification statements and warnings
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




                                      Submission Process

8. Transmission error checking and documentation
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                        17
9. Opportunity to review copy of record (See 9a through 9c)

9a. Notification that copy of record is available
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




9b. Creation of copy of record in a human-readable format
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




9c. Providing the copy of record
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                     18
10. Procedures to address submitter/signatory repudiation of a copy of record
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




11. Procedures to flag accidental submissions
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




12. (e-signature cases only) Automatic acknowledgment of submission
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




                            Signature Validation (e-signature cases only)




14-P-0143                                                                       19
13. Credential validation (See 13a through 13c)

13a. Determination that credential is authentic
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




13b. Determination of credential ownership
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




13c. Determination that credential is not compromised
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                               20
14. Signatory authorization
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




15. Procedures to flag spurious credential use
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




16. Procedures to revoke/reject compromised credentials
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                 21
17. Confirmation of signature binding to document content
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




                                          Copy of Record

18. Creation of copy of record (See 18a through 18e)

18a. True and correct copy of document received
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




18b. Inclusion of electronic signatures
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                   22
18c. Inclusion of date and time of receipt
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




18d. Inclusion of other information necessary to record meaning of document
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




18e. Ability to be viewed in human-readable format
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                                                     23
19. Timely availability of copy of record as needed
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




20. Maintenance of copy of record
      Business Practices:



      System Functions:



      Supporting Documentation (list attachments):




14-P-0143                                             24
                                                                                         Appendix B

                          Summary of States’ Input on
                           CROMERR Implementation

                             Suggestion                                States agreeing with suggestion
More CROMERR information technology (IT) guidance to the states.                     5
(Includes proving states’ IT security personnel with training about
CROMERR IT requirements).
Timelier response to application submissions and inquiries.                          4
Provide current list of states with CROMERR-compliant systems                        4
(with point of contacts), and list of third party solutions/vendors.
More outreach from the EPA (including face-to-face and direct                        3
communication).
CROMERR website updated with current communication.                                  3
Staffing OEI CROMERR personnel for the size of the workload they                     3
are handling.
More EPA-created systems for states to use/customize.                                3
Provide states with models of CROMERR-compliant systems.                             3
More involvement from regional TRC representative in the                             3
CROMERR process.
Provide definitive technical answers to states’ questions.                           3
CROMERR application reviews should consider new IT solutions as                      2
opposed to tailoring systems to previously approved IT solutions.
Provide expected timeframe for response during informal process.                     2
Also, determine when formal process should be used.
Provide regions and states with “question and answer” sessions to                    2
assist with the application process.
Avoid delays in implementing e-reporting system (caused by the                       2
CROMERR application process affecting production and operations
costs).
Assistance from the EPA with marketing states’ e-report systems to                   1
its intended users.
Provide source code and other CROMERR-compliant operational                          1
technology in a vendor-neutral format.
Provide information regarding how facilities and other third parties                 1
submit electronic reports directly to the EPA in a CROMERR-
compliant format.
Source: OIG analysis.




14-P-0143                                                                                         25
                                                                                   Appendix C

                  Agency Response to Draft Report
    MEMORANDUM

    SUBJECT:	      Response to Office of Inspector General Draft Report No. OMS-FY12
                   0004: EPA Needs to Improve Management of the Cross-Media
                   Electronic Reporting Regulation Program, dated August 28, 2013

    FROM:	         Renee P. Wynn
                   Acting Assistant Administrator and Chief Information Officer

    TO: 	          Richard Eyermann, Acting Assistant Inspector General
                   Office of Audit
                   Office of Inspector General

    Thank you for the opportunity to respond to the issues and recommendations in the subject
    audit report. This memorandum provides a summary of the position on each of the report’s
    six recommendations. For those report recommendations with which the agency agrees, I
    have provided high-level intended corrective actions and estimated completion dates. For
    those report recommendations with which the agency does not agree, I have explained
    EPA’s position and provided the legal basis when relevant.

    AGENCY’S POSITION

    Of the six recommendations in the draft audit report, EPA agrees with recommendations 1, 

    2, 3, 

    5b and 6 and describes corrective actions in the provided Agreements table. EPA disagrees 

    with recommendations 4 and 5a. 


    SUMMARY OF DISAGREEMENTS 

    With respect to OIG recommendation 4, EPA disagrees because the regulation 

    governing the program clearly articulates the standards by which that agency is to

    evaluate state Attorney General certifications. 


    With respect to OIG recommendation 5a, EPA disagrees because it does not have the legal 

    authority within CROMERR to inspect authorized programs’ electronic reporting systems 

    prior to application approval. 





14-P-0143                                                                                    26
If you have any questions regarding this response, please contact Jonathan Jacobson, subject
audit primary contact, Office of Information Collection, Information Exchange and Services
Division, Information Exchange Partnership Branch at (202) 566-1984,
jacobson.jonathan@epa.gov or Scott Dockum, OEI Audit Follow-Up Manager, Office of
Program Management, Policy, Outreach and Communications Staff at (202) 566-1914,
dockum.scott@epa.gov.

Attachments

cc:    R
       	 udy Brevard
       Connie Dwyer
       Warren Brooks
       Jonathan Jacobson
       Evi Huffer
       Karen Seeh
       Christina Nelson
       Scott Dockum




14-P-0143                                                                                      27
  Attachment 1

              AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS
  Agreements
  No. Recommendation         High-Level Intended Corrective Action(s)          Estimated
                                                                           Completion by
                                                                             Quarter and
                                                                                  FY
  1    Update               1.1 a and b – Update procedures                1st Quarter
       CROMERR                                                             FY 2014
       procedures to
       remove references    1.1 c – Update Technical Review Committee      1st Quarter
       to the Exchange      Charter                                        FY 2013
       Network Policy                                                      (complete)
       and Planning         1.1 d – Update flow chart                      1st Quarter
       Workgroup                                                           FY 2013
       (ENPPW) and                                                         (complete)
       Quality              1.2 a and b – Submit updated Procedure         1st Quarter
       Information          Documents to CIO for review and approval       FY 2014
       Counsel –            1.3 a and b – Obtain CIO approval of updated   4th Quarter FY
       Exchange             Procedure Documents                            2014
       Network              1.3 EPA will review CROMERR documents          2nd Quarter FY
       Subcommittee         every three years to ensure that the content   2017
       (QIC-ENS)            reflects current practices
       because they no
       longer participate
       in the CROMERR
       program,
       including:
       a). EPA Procedure
       for Approval of
       State, Tribal, or
       Local
       Government
       Authorized or
       Delegated
       Program
       Applications for
       Implementing
       CROMERR; and
       b). EPA
       Procedure for
       Implementation of
       CROMERR for
       EPA Systems.
       Update the
       following


14-P-0143                                                                                   28
       documents to
       reflect current
       business practices:
       c). Technical
       Review
       Committee
       Charter; and
       d). CROMERR
       authorized
       program review
       for approval
       flowchart.
  2    Update                The step-by-step guide for authorized programs      2nd Quarter
       CROMERR               found on the CROMERR website                        FY 2014
       procedures to state   (http://epa.gov/cromerr/documents/cromerr_ste
       where                 p_by_step_guide.pdf) provides the correct
       CROMERR               address for submitting applications.
       applications and      OEI will inventory all CROMERR websites
       modifications to      and will update all website documentation to
       applications are      direct applicants to the step-by-step guide or
       sent.                 remove information that is not consistent with
                             the step-by-step guide.
  3    Develop and           Over the past 18 months OEI has implemented         2nd Quarter FY
       implement an          procedures to ensure that all program offices       2014
       oversight process     and Regions are represented on the TRC as part
       to regularly notify   of its overall effort to improve program
       Regions and           administration and communication. OEI will
       Program Offices       codify these activities in a Standard Operating
       when TRC              Procedure (SOP) that OEI will post on its
       representative        internal OEI SOP intranet website.
       roles need to be
       filled.
  5    Take the lead to      b). With respect to post-approval changes,          1st Quarter
       create an             EPA’s approval letter informs applicants of         FY 2013
       enforcement           their obligation to notify EPA of any changes       (complete)
       policy and            (e.g., technology, business practices, statutory,
       procedures that       regulatory) that would affect the system and
       include               includes, as an attachment, the procedure for
       implementing a        notifying the agency and modifying the
       process for:          applicant’s program authorization if the change
       b). Following up      merits such modification. To date, EPA is not
       with applicants       aware of any cases of non-compliance.
       that have
       approved
       CROMERR
       applications,
       noting any
       changes made to
       the approved

14-P-0143                                                                                         29
       CROMERR
       application.

  6    Develop and            EPA will conduct completeness reviews on           3rd Quarter FY
       implement a            new applications that are consistent with          2014
       completeness           CROMERR’s requirements.
       review process
       with states, tribes,
       and local
       governments that
       is consistent with
       CROMERR.

  Disagreements
  No.     Recommendation                          Agency Explanation/Response

  4     Document how                 While AG certifications vary in content, OGC finds that
        attorneys verify the         agency regulations at 40 C.F.R. section 3.1000(b)(1)(i)
        validity of an AG            clearly articulates the standards by which to evaluate the
        certification, including     AG certifications.
        how to determine an
        authorized AG designee.
  5     Take the lead to create      a). CROMERR’s requirements to review and approve
        an enforcement policy        applications for authorized program
        and procedures that          modifications/revisions are modeled on EPA’s primacy
        include implementing a       regulations, which rely on the accuracy of the information
        process for:                 provided by authorized programs. The regulation does not
        a). Verifying system         authorize the agency to verify system functionality prior to
        functionality prior to the   application approval.
        TRC approval of
        CROMERR
        Applications.




14-P-0143                                                                                           30
                                                                               Appendix D

    Subsequent Agency Response to Draft Report (OEI)
            AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS
Agreements
No. Recommendation         High-Level Intended Corrective Action(s)          Estimated
                                                                         Completion by
                                                                          Quarter and
                                                                                FY
                                                                          st
1    Update               1.1 a and b – Submit updated Procedure         1 Quarter
     CROMERR              Documents to CIO for review and approval       FY 2014
     procedures to
     remove references    1.1 c – Update Technical Review Committee      1st Quarter
     to the Exchange      Charter                                        FY 2013
     Network Policy                                                      (complete)
     and Planning         1.1 d – Update flow chart                      1st Quarter
     Workgroup                                                           FY 2013
     (ENPPW) and                                                         (complete)
     Quality              1.2 a and b – Submit updated Procedure         1st Quarter
     Information          Documents to CIO for review and approval       FY 2014
     Council –            1.3 a and b – Obtain CIO approval of updated   4th Quarter FY
     Exchange             Procedure Documents                            2014
     Network              1.3 EPA will review CROMERR documents          2nd Quarter FY
     Subcommittee         every three years to ensure that the content   2017
     (QIC-ENS)            reflects current practices
     because they no
     longer participate
     in the CROMERR
     program,
     including:
     a). EPA Procedure
     for Approval of
     State, Tribal, or
     Local
     Government
     Authorized or
     Delegated
     Program
     Applications for
     Implementing
     CROMERR; and
     b). EPA
     Procedure for



14-P-0143                                                                                 31
     Implementation of
     CROMERR for
     EPA Systems.
     Update the
     following
     documents to
     reflect current
     business practices:
     c). Technical
     Review
     Committee
     Charter; and
     d). CROMERR
     authorized
     program review
     for approval
     flowchart.
2    Update                The step-by-step guide for authorized programs    2nd Quarter
     CROMERR               found on the CROMERR website                      FY 2014
     procedures to state   (http://epa.gov/cromerr/documents/cromerr_ste
     where                 p_by_step_guide.pdf) provides the correct
     CROMERR               address for submitting applications.
     applications and      OEI will inventory all CROMERR websites
     modifications to      and will update all website documentation to
     applications are      direct applicants to the step-by-step guide or
     sent.                 remove information that is not consistent with
                           the step-by-step guide.
3    Develop and           Over the past 18 months OEI has implemented       2nd Quarter FY
     implement an          procedures to ensure that all program offices     2014
     oversight process     and Regions are represented on the TRC as part
     to regularly notify   of its overall effort to improve program
     Regions and           administration and communication. OEI will
     Program Offices       codify these activities in a Standard Operating
     when TRC              Procedure (SOP) that OEI will post on its
     representative        internal OEI SOP intranet website.
     roles need to be
     filled.
4    Create and
     implement an
     internal guidance
     the staff will use
     to determine
     acceptable
     evidence for an
     authorized AG
     designee.


14-P-0143                                                                                     32
5    Create a process      As part of OEI’s internal completeness review    Ongoing
     to determine if the   process for an application, OEI prepares
     information           detailed comments identifying all areas of an
     included in the       application where additional information is
     CROMERR               needed in order to determine if an application
     application is        can be approved. OEI sends these comments to
     reliable and          the applicant with the completeness
     accurate prior to     determination letter and follows up with a
     the CROMERR           conference call to review the comments and
     application being     obtain the information required to determine
     approved.             the application to be complete.

6    Create a process      OEI will utilize the CROMER Program         1st Quarter
     to regularly follow   Management System automated email           FY 2015
     up with applicants    capabilities to send all applicants with
     with approved         approved applications an annual reminder to
     CROMERR               inform OEI of any changes to their CROMERR
     applications in       applications.
     order to confirm
     that no changes
     were made to the
     approved
     CROMERR
     application.




14-P-0143                                                                             33
                                                                                 Appendix E

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
General Counsel
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Environmental Information
Principal Deputy General Counsel, Office of General Counsel
Director, Office of Information Collection, Office of Environmental Information
Division Director, Information Exchange and Services Division, Office of Environmental
        Information
Chief, Information Exchange Partnership Branch, Office of Environmental Information
Associate General Counsel, General Law Office, Office of General Counsel
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of General Counsel




14-P-0143                                                                                34
